Page 2 – Charlene Frizzera


We recommend that CareFirst:

   •   decrease Medicare segment pension assets as of December 31, 2005, by $10,793;

   •   increase Medicare’s share of the excess Medicare segment pension assets as of
       December 31, 2005, by $511,520; and

   •   refund to the Federal Government $4,271,992, which we calculated to be Medicare’s
       share of the Medicare segment excess pension assets as of the termination of the
       Medicare contracts.

In written comments on our draft report, CareFirst concurred with our first recommendation but
disagreed with our second and third recommendations. CareFirst’s comments offered
substantively the same arguments that CareFirst officials raised, and that we considered, during
our review. Accordingly, and after reviewing CareFirst’s written comments, we continue to
support all of our findings and recommendations.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact George M. Reeb, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov or Patrick
J. Cogley, Regional Inspector General for Audit Services, Region VII, at (816) 426-3591 or through
e-mail at Patrick.Cogley@oig.hhs.gov. Please refer to report number A-07-07-00243.


Attachment
Page 2 – Mr. Emery Hill


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  REVIEW OF THE QUALIFIED
 PENSION PLAN AT CAREFIRST
OF MARYLAND, INCORPORATED,
  A TERMINATED MEDICARE
CONTRACTOR, FOR THE PERIOD
     JANUARY 1, 2002, TO
     DECEMBER 31, 2005




                    Daniel R. Levinson
                     Inspector General

                      February 2009
                      A-07-07-00243
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                                   EXECUTIVE SUMMARY

BACKGROUND

CareFirst of Maryland, Incorporated (CareFirst), administered Medicare Part A and Part B
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS) beginning July 1, 1966. On December 31, 1994, the Part B contractual
relationship was terminated, and on September 30, 2005, the Part A contractual relationship was
terminated. The effective closing date for the Medicare segment was December 31, 2005.

Pension Plan

CareFirst sponsors a defined-benefit pension plan, which is a deferred compensation plan in
which an employer makes actuarially determined contributions to fund an employee’s retirement
benefit as defined by the plan’s terms.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Medicare contracts, Federal Acquisition Regulation, and Cost Accounting Standards (CAS).
Furthermore, the Medicare contracts specifically prohibit any profit (gain) from Medicare
activities. Therefore, contractors must credit to the Medicare program those pension gains
(excess pension assets) that occur when a Medicare segment terminates.

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated segmentation requirements into the
Medicare contracts. The Medicare contracts define a segment and specify the methodology for
the identification and initial allocation of pension assets to the segment. Additionally, the
contracts require Medicare segment assets to be updated for each year after the initial allocation
in accordance with CAS 412 and 413.

Upon the termination of its Medicare contracts, CareFirst identified Medicare’s share of the
Medicare segment excess pension assets to be $3,760,472. However, CareFirst has not refunded
any of this amount, opting to wait until the results of our audit are finalized.

OBJECTIVE

Our objective was to determine whether CareFirst complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

   •   updating Medicare segment assets from January 1, 2002, to December 31, 2005; and

   •   determining Medicare’s share of the Medicare segment excess pension assets as of the
       termination of CareFirst’s Medicare contracts.




                                                 i
SUMMARY OF FINDINGS

CareFirst did not always comply with Federal requirements and the Medicare contracts’ pension
segmentation requirements. Specifically, when updating Medicare segment assets from
January 1, 2002, to December 31, 2005, CareFirst overstated investment earnings, less
administrative expenses, for the Medicare segment. As a result, CareFirst overstated the
Medicare segment assets by $10,793.

In addition, CareFirst did not fully comply with Federal requirements in its calculation of
Medicare’s share of the Medicare segment excess pension assets associated with the termination
of the Medicare contracts. We identified $4,271,992 as Medicare’s share; however, CareFirst
identified $3,760,472 as Medicare’s share. Thus, CareFirst understated Medicare’s share by
$511,520.

RECOMMENDATIONS

We recommend that CareFirst:

   •   decrease Medicare segment pension assets as of December 31, 2005, by $10,793;

   •   increase Medicare’s share of the excess Medicare segment pension assets as of
       December 31, 2005, by $511,520; and

   •   refund to the Federal Government $4,271,992, which we calculated to be Medicare’s
       share of the Medicare segment excess pension assets as of the termination of the
       Medicare contracts.

AUDITEE COMMENTS

In written comments on our draft report, CareFirst concurred with our first recommendation but
disagreed with our second and third recommendations. CareFirst stated that our calculations did
not take into account that the Federal Government did not fully participate in the funding of the
Medicare pension segment assets. CareFirst provided additional information about its “unique”
situation, information which “. . . makes the application of a strict pension cost calculation
inaccurate and is not the intent of CAS 413.” CareFirst’s comments are included in their entirety
as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing CareFirst’s written comments, we continue to support all of our findings and
recommendations, including our recommendation that CareFirst refund to the Federal
Government $4,271,992, which we calculated to be Medicare’s share of the Medicare segment
excess pension assets as of the termination of the Medicare contracts. Notwithstanding
CareFirst’s stated belief that the Federal Government had not fully participated in the funding of
the Medicare segment assets, CareFirst’s computations did not fully comply with the pension-
cost-only methodology specified by CAS 413.



                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION......................................................................................................................... 1

          BACKGROUND ................................................................................................................ 1
              Pension Plan............................................................................................................ 1
              Federal Requirements ............................................................................................. 1
              Pension Segmentation............................................................................................. 1

          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................. 2
               Objective ................................................................................................................. 2
               Scope....................................................................................................................... 2
               Methodology ........................................................................................................... 2

FINDINGS AND RECOMMENDATIONS ............................................................................... 3

          UPDATE OF MEDICARE SEGMENT PENSION ASSETS............................................ 4
              Federal Requirements ............................................................................................. 4
              Earnings and Expenses Overstated ......................................................................... 4

          MEDICARE SEGMENT EXCESS PENSION ASSETS................................................... 4
               Federal Requirements ............................................................................................. 4
               Excess Medicare Segment Pension Assets as of December 31, 2005 .................... 5
               Medicare’s Share of Excess Pension Assets as of
                 December 31, 2005 ............................................................................................ 6

          RECOMMENDATIONS.................................................................................................... 7

          AUDITEE COMMENTS.................................................................................................... 7

          OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................... 8

APPENDIXES

    A – MARKET VALUE OF PENSION ASSETS FOR THE PERIOD
        JANUARY 1, 2002, TO DECEMBER 31, 2005

    B – CALCULATION OF AGGREGATE MEDICARE PERCENTAGE

    C – AUDITEE COMMENTS




                                                                    iii
               Glossary of Abbreviations and Acronyms

CareFirst   CareFirst of Maryland, Incorporated
CAS         Cost Accounting Standards
CMS         Centers for Medicare & Medicaid Services
FAR         Federal Acquisition Regulation
WAV         weighted average value




                                   iv
                                       INTRODUCTION

BACKGROUND

CareFirst of Maryland, Incorporated (CareFirst), administered Medicare Part A and Part B
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS) beginning July 1, 1966. On December 31, 1994, the Part B contractual
relationship was terminated, and on September 30, 2005, the Part A contractual relationship was
terminated. The effective closing date for the Medicare segment was December 31, 2005.

Pension Plan

CareFirst sponsors a defined benefit pension plan, which is a deferred compensation plan in
which an employer makes actuarially determined contributions to fund an employee’s benefit as
defined by the plan’s terms. Once an employee satisfies the plan’s age and service requirements
and retires, he or she is eligible to receive a monthly payment from the plan. The plan
accumulates assets from employer contributions and net investment earnings to fund the actuarial
liability for both earned and projected future benefits. To the extent that assets accumulate from
better-than-expected investment earnings, the amount of required annual employer contributions
decreases and may even be eliminated for some years.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Medicare contracts, Federal Acquisition Regulation (FAR), and Cost Accounting Standards
(CAS). Furthermore, the Medicare contracts specifically prohibit any profit (gain) from
Medicare activities. Therefore, contractors must credit to the Medicare program those pension
gains (excess pension assets) that occur when a Medicare segment terminates.

Federal Requirements

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods. CAS 413 also addresses the determination of segment
assets and liabilities in the event of contract terminations, segment closings, or pension plan
terminations.

FAR part 31 addresses the allowability of pension costs and the recovery of gains, rebates, and
other forms of credits for Federal contractors.

Pension Segmentation

CMS incorporated CAS 412 and 413 into the Medicare contracts effective October 1, 1980.
Starting in fiscal year 1988, CMS incorporated segmentation requirements into Medicare



                                                1
contracts. The Medicare contracts define a segment and specify the methodology for the
identification and initial allocation of pension assets to the segment. The contracts require
Medicare segment assets to be updated for each year after the initial allocation in accordance
with CAS 412 and 413. In claiming costs, contractors must follow cost reimbursement
principles contained in the FAR, CAS, and the Medicare contracts.

Upon the termination of its Medicare contracts, CareFirst identified Medicare’s share of the
Medicare segment excess pension assets to be $3,760,472. However, CareFirst has not refunded
any of this amount, opting to wait until the results of our audit are finalized.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether CareFirst complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

   •    updating Medicare segment assets from January 1, 2002, to December 31, 2005; and

   •    determining Medicare’s share of the Medicare segment excess pension assets as of the
        termination of CareFirst’s Medicare contracts.

Scope

We reviewed CareFirst’s identification of its Medicare segment; update of Medicare segment
assets from January 1, 2002, to the December 31, 2005, determination of final segment
liabilities; and development of Medicare’s share of the Medicare segment’s excess assets as of
December 31, 2005. Although CareFirst’s Medicare contracts were terminated on
September 30, 2005, we agreed with CareFirst’s request to use December 31, 2005, as the
closing date for the Medicare pension segment.

Achieving our objective did not require us to review CareFirst’s overall internal control
structure. We reviewed controls relating to the identification of the Medicare segment, the
update of the segment’s assets, the determination of the final segment liabilities, and the
development of Medicare’s share of the segment’s excess pension assets.

We performed fieldwork at CareFirst in Baltimore, Maryland, during October 2005 and
May 2007.

Methodology

To accomplish our objective:

   •     We reviewed the applicable portions of the FAR, CAS, and the Medicare contracts.




                                                2
   •    We reviewed the annual actuarial valuation reports prepared by CareFirst’s actuarial
        consulting firm, which included the pension plan’s assets, liabilities, normal costs,
        contributions, benefit payments, investment earnings, and administrative expenses. We
        used this information to calculate the Medicare segment assets.

   •    We obtained the pension plan documents and Department of Labor/Internal Revenue
        Service Form 5500s used in calculating the Medicare segment assets.

   •    We interviewed CareFirst staff responsible for identifying the Medicare segment to
        determine whether the segment was properly identified in accordance with the Medicare
        contracts.

   •    We reviewed CareFirst’s accounting records to verify the segment identification and
        benefit payments made to the Medicare segment.

   •    We provided the CMS Office of the Actuary with the actuarial information necessary
        for it to calculate the Medicare segment assets and the Medicare segment excess
        pension assets as of December 31, 2005.

   •    We reviewed the CMS actuaries’ methodology and calculations.

We performed this review in conjunction with our audit of CareFirst’s pension costs claimed for
Medicare reimbursement (A-07-07-00244) and used the information obtained during that audit in
this review. In addition, we used information obtained during our prior pension segmentation
audits (A-07-93-00692 and A-07-02-03033) in this review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

CareFirst did not always comply with Federal requirements and the Medicare contracts’ pension
segmentation requirements. Specifically, when updating Medicare segment assets from
January 1, 2002, to December 31, 2005, CareFirst overstated investment earnings, less
administrative expenses, for the Medicare segment. As a result, CareFirst overstated the
Medicare segment assets by $10,793. Appendix A presents details on the Medicare segment’s
pension assets from January 1, 2002, to December 31, 2005, as determined during our audit.

In addition, CareFirst did not fully comply with Federal requirements in its calculation of
Medicare’s share of the Medicare segment excess pension assets associated with the termination
of the Medicare contracts. We identified $4,271,992 as Medicare’s share; however, CareFirst




                                               3
identified $3,760,472 as Medicare’s share. 1 Thus, CareFirst understated Medicare’s share by
$511,520.

UPDATE OF MEDICARE SEGMENT PENSION ASSETS

Federal Requirements

The Medicare contracts state that “. . . the pension assets allocated to each Medicare Segment
shall be adjusted in accordance with CAS 413.50(c)(7).” CAS 413.50(c)(7) requires that the
asset base be adjusted by contributions, permitted unfunded accruals, income, benefit payments,
and expenses. For plan years beginning on or before March 30, 1995, the CAS requires
investment income and expenses to be allocated among segments in proportion to the beginning-
of-year asset value. For plan years beginning after March 30, 1995, the CAS requires investment
income and expenses to be allocated among segments based on the ratio of the segment’s
weighted average value (WAV) of assets to total company WAV of assets.

Earnings and Expenses Overstated

CareFirst overstated investment earnings, less administrative expenses, by $10,793 for the
Medicare segment. CareFirst did not use the WAV of assets to allocate earnings as required by
CAS 413.50(c)(7). Instead, CareFirst allocated investment earnings and administrative expenses
to the Medicare segment based on a ratio of beginning-of-year segment assets to total company
assets. Because of this error, CareFirst’s allocation basis differed from that required by the CAS
and led to incorrect allocation amounts. In our audited update, we allocated earnings and
expenses based on the applicable CAS requirements.

MEDICARE SEGMENT EXCESS PENSION ASSETS

Federal Requirements

Medicare Contracts

The Medicare contracts specifically prohibit any profit (gain) from Medicare activities. Pension
gains that occur when a segment closes (i.e., contract terminations) must be credited to the
Medicare program, as required by the FAR. In the event of a contract termination, the Medicare
contracts require contractors to follow the segment closing provision of the CAS.

Federal Acquisition Regulation

The FAR addresses dispositions of gains in situations such as segment closings. When excess or
surplus assets revert to a contractor because of a termination of a pension plan or when such
assets are constructively received by the contractor for any reason, the contractor must make a
refund or give credit to the Government for its equitable share (FAR 31.205-6(j)(3)).



1
    As stated earlier, CareFirst has not refunded any of these excess assets.


                                                              4
Cost Accounting Standards

During 1980, CMS renegotiated the Medicare contracts and expressly incorporated CAS 412 and
413 into the contracts beginning October 1, 1980.

Contract terminations and segment closings are addressed by CAS 413.50(c)(12), which states:

       If a segment is closed, if there is a pension plan termination, or if there is a
       curtailment of benefits, the contractor shall determine the difference between the
       actuarial liability for the segment and the market value of the assets allocated to
       the segment, irrespective of whether or not the pension plan is terminated. The
       difference between the market value of the assets and the actuarial accrued
       liability for the segment represents an adjustment of previously-determined
       pension costs.

       (i) The determination of the actuarial accrued liability shall be made using the
       accrued benefit cost method. The actuarial assumptions employed shall be
       consistent with the current and prior long term assumptions used in the
       measurement of pension costs . . . .

       (ii) . . . The market value of the assets shall be reduced by the accumulated value
       of prepayment credits, if any. Conversely, the market value of assets shall be
       increased by the current value of any unfunded actuarial liability separately
       identified and maintained in accordance with 9904.412-50(a)(2).

       (iii) The calculation of the difference between the market value of the assets and
       the actuarial accrued liability shall be made as of the date of the event (e.g.,
       contract termination, plan amendment, plant closure) that caused the closing of
       the segment, pension plan termination, or curtailment of benefits. If such a date is
       not readily determinable, or if its use can result in an inequitable calculation, the
       contracting parties shall agree on an appropriate date.

Excess Medicare Segment Pension Assets as of December 31, 2005

CareFirst identified $4,282,785 in excess Medicare segment pension assets as of December 31,
2005. However, we calculated the excess pension assets to be $4,271,992 as of that date.
Therefore, CareFirst overstated the excess pension assets by $10,793. The overstatement
occurred because, as previously discussed, CareFirst did not comply with the CAS in updating
the Medicare segment pension assets to December 31, 2005. (CareFirst correctly identified the
segment’s accrued liabilities and accumulated unfunded pension costs.) Table 1 on the next page
summarizes the differences between CareFirst’s and our calculations.




                                                5
                  Table 1: Adjustments to Excess Medicare Segment Pension Assets
                                                    Per Audit     Per CareFirst                       Difference
Medicare segment assets as of December 31, 2005       $9,975,448     $9,986,241                          ($10,793)
Accrued liabilities of segment participants           (5,811,342)     (5,811,342)                                0
Accumulated unfunded pension costs                       107,886         107,886                                 0
Medicare segment excess pension assets                 4,271,992       4,282,785
 Overstatement                                                                                            ($10,793)

Medicare’s Share of Excess Pension Assets as of December 31, 2005

Federal Requirements

The methodology for determining the Federal Government’s share of excess pension assets is
addressed by CAS 413.50(c)(12)(vi), which states:

        The Government’s share of the adjustment amount determined for a segment shall
        be the product of the adjustment amount and a fraction. The adjustment amount
        shall be reduced for any excise tax imposed upon assets withdrawn from the
        funding agency of a qualified pension plan. The numerator of such fraction shall
        be the sum of the pension plan costs allocated to all contracts and subcontracts
        (including Foreign Military Sales) subject to this Standard during a period of
        years representative of the Government’s participation in the pension plan. The
        denominator of such fraction shall be the total pension costs assigned to cost
        accounting periods during those same years. This amount shall represent an
        adjustment of contract prices or cost allowance as appropriate. The adjustment
        may be recognized by modifying a single contract, several but not all contracts, or
        all contracts, or by use of any other suitable technique. [Emphasis added.]

CareFirst’s Approach

CareFirst calculated Medicare’s share of the segment’s excess assets by developing a final
aggregate Medicare percentage using a two-step approach that did not fully comply with the
pension-cost-only methodology specified by CAS 413. The first step of the approach was based
on CareFirst’s belief that the Government had not fully participated in the initial funding of the
1986 Medicare segment assets. 2 Accordingly, CareFirst calculated what it believed to be
Medicare’s portion of the 1986 Medicare segment assets. As a second step, CareFirst used a
weighted average approach and incorporated the Medicare segment’s reimbursed pension costs 3
to develop a final Medicare percentage. Although CareFirst’s approach incorporated the CAS
413 methodology in part, the approach also considered asset values, which included factors other
than pension costs. Therefore, CareFirst’s approach did not comply with the pension-cost-only
method specified by CAS 413.

2
 The development of the 1986 initial Medicare segment assets was addressed in a previous audit (A-07-93-00692).
The purpose of that audit did not include developing Medicare’s share of 1986 Medicare segment assets.

3
This second step of CareFirst’s computations considered the 4 years (fiscal years 1988 through 1991) in which the
Medicare segment’s pension costs were greater than $0.


                                                        6
Results per Audit

CareFirst computed $3,760,472 as Medicare’s share of the Medicare segment excess pension
assets as of December 31, 2005; however, we determined that Medicare’s share was $4,271,992.
Therefore, CareFirst understated Medicare’s share by $511,520.

In accordance with CAS 413.50(c)(12)(vi), we calculated the aggregate Medicare percentage
using the Medicare segment pension costs developed during both the previous and the current
pension audits. Appendix B shows our calculation of the Medicare segment’s aggregate
Medicare percentage; Table 2 shows our calculation of Medicare’s share of the excess assets.

                    Table 2: Medicare’s Share of Excess Assets (Adjustment)

                                                                           Excess Assets
                           Excess Medicare       Aggregate Medicare        Attributable to
                          Segment Assets (A)       Percentage (B)         Medicare (A x B)

        Per audit                  $4,271,992           100.00%                   $4,271,992
        Per CareFirst *             4,282,785            87.80%                    3,760,472
         Difference                                                                $511,520

        * CareFirst's computations dated 5/15/07.

RECOMMENDATIONS

We recommend that CareFirst:

   •   decrease Medicare segment pension assets as of December 31, 2005, by $10,793;

   •   increase Medicare’s share of the excess Medicare segment pension assets as of
       December 31, 2005, by $511,520; and

   •   refund to the Federal Government $4,271,992, which we calculated to be Medicare’s
       share of the Medicare segment excess pension assets as of the termination of the
       Medicare contracts.

AUDITEE COMMENTS

In written comments on our draft report, CareFirst concurred with our first recommendation but
disagreed with our second and third recommendations. CareFirst recomputed $3,750,809 as
Medicare’s share of the Medicare segment excess pension assets as of December 31, 2005.

CareFirst stated that our calculation of Medicare’s share of the “. . . surplus Medicare pension
segment assets does not take into account that CMS did not fully participate in the funding of
those assets.” CareFirst said that it “. . . incurred administrative costs in excess of its Notice of
Budget Approval (NOBA) amount, and that CareFirst did not receive reimbursement [from


                                                    7
CMS] for its over-NOBA costs.” CareFirst added that “. . . the [Federal] Government did not
fully participate in the initial funding of CareFirst’s Medicare segment assets.”

Having offered these statements and related information about the initial funding of CareFirst’s
Medicare segment assets, CareFirst added that its “. . . situation is unique . . .” which “. . . makes
the application of a strict pension cost calculation inaccurate and is not the intent of CAS 413.”
CareFirst stated that accordingly, “. . . business judgment, not rigid accounting principles, should
govern the settlement of terminations . . .” and it cited FAR 49.201 in making this argument.

In addition to commenting on our recommendations, CareFirst added comments about its
postretirement benefits [PRB] program, “. . . which is not addressed in either of the OIG’s
[Office of Inspector General] draft reports. . . . CareFirst believes that [its] PRB liability should
be offset against the pension surplus in calculating the remaining amount due the Government.”

CareFirst’s comments are included in their entirety as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing CareFirst’s written comments, we continue to support all of our findings and
recommendations, including our recommendation that CareFirst refund to the Federal
Government $4,271,992, which we calculated to be Medicare’s share of the Medicare segment
excess pension assets as of the termination of the Medicare contracts.

Other than the appeal to FAR 49.201 and the argument that business judgment rather than
accounting principles should govern the settlement of terminations, CareFirst’s comments
offered substantively the same arguments that CareFirst officials raised, and that we considered,
during our review. Notwithstanding CareFirst’s stated belief that the Federal Government had
not fully participated in the initial funding of the Medicare segment assets, the computations that
CareFirst undertook in keeping with this stated belief did not fully comply with the pension-cost-
only methodology specified by CAS 413. Specifically, CareFirst’s approach considered asset
values, which included factors other than pension costs, in its methodology. Accordingly, and
because CareFirst’s approach did not fully comply with the provisions of CAS 413, we did not
change our findings, we did not incorporate CareFirst’s recomputed figure of $3,750,809 into
those findings, and we did not modify our recommendations.

With respect to CareFirst’s related statement regarding FAR 49.201, we acknowledge that
although part 49 language may not technically apply, both the FAR and relevant statutes support
the general principle that the CMS contracting officer has the authority to use discretion and
business judgment in addressing and compromising contract claims. However, this authority, in
our view, cannot be read to override basic applicable FAR provisions, including CAS 413, which
requires calculation of Medicare segment assets under the pension-cost-only method. For our
part, we held to the provisions of CAS 413 when calculating CareFirst’s Medicare segment
assets, and our findings and recommendations reflect that fact.

With respect to the PRB issue, we have informed CareFirst that the PRB claim will be addressed
separately in a future report.



                                                  8
APPENDIXES
                                                                                 APPENDIX A
                                                                                   Page 1 of 2


                            MARKET VALUE OF PENSION ASSETS
                                    FOR THE PERIOD
                           JANUARY 1, 2002, TO DECEMBER 31, 2005
          Description                Total Company      Other Segment      Medicare Segment

Assets January 1, 2002          1/     $103,199,635         $90,646,028          $12,553,607

Contributions                   2/       10,868,123          10,868,123                    0
Earnings                        3/      (13,801,443)        (12,131,601)          (1,669,842)
Benefit payments                4/       (8,196,365)         (7,709,643)            (486,722)
Expenses                        5/         (740,811)           (651,180)             (89,631)
Transfers                       6/                0               1,496               (1,496)
Other transactions              7/      203,598,056         203,598,056                    0

Assets January 1, 2003                  294,927,195         284,621,279           10,305,916

Contributions                             64,555,250         64,555,250                    0
Earnings                                  65,054,840         62,774,951            2,279,889
Benefit payments                         (16,952,717)       (16,692,800)            (259,917)
Expenses                                  (1,401,932)        (1,352,800)             (49,132)
Transfers                                          0           (153,310)             153,310
Other transactions                                 0                  0                    0

Assets January 1, 2004                  406,182,636         393,752,570           12,430,066

Contributions                             24,495,840         24,495,840                    0
Earnings                                  41,957,009         40,750,844            1,206,165
Benefit payments                         (23,033,016)       (21,294,301)          (1,738,715)
Expenses                                  (2,637,426)        (2,561,606)             (75,820)
Transfers                                                        89,128              (89,128)
Other transactions                       (30,128,184)       (30,128,184)                   0

Assets January 1, 2005                   416,836,859        405,104,291            11,732,568

Contributions                             13,370,000         13,370,000                    0
Earnings                                  21,057,729         20,471,284              586,445
Benefit payments                         (36,464,309)       (35,253,313)          (1,210,996)
Expenses                                  (2,041,661)        (1,984,802)             (56,859)
Transfers                                          0          1,075,710           (1,075,710)
Other transactions                                 0                  0                    0

Assets December 31, 2005                 ($4,078,241)       ($2,321,121)         ($1,757,120)
Per CareFirst                   8/      $412,758,618       $402,772,377           $9,986,241
Asset variance                  9/     ($416,836,859)     ($405,093,498)        ($11,743,361)
                                                                                               APPENDIX A
                                                                                                 Page 2 of 2



FOOTNOTES

1/   We determined the Medicare segment assets as of January 1, 2002, in our prior audit (A-07-02-03033).
     The amounts shown for the Other segment represent the difference between the Total Company
     segment and the Medicare segment. All pension assets are shown at market value.

2/   We obtained Total Company contribution amounts from the actuarial valuation reports and Department
     of Labor/Internal Revenue Service Form 5500s. We allocated Total Company contributions to the
     Medicare segment based on the ratio of the Medicare segment funding target divided by the Total
     Company funding target. Contributions in excess of the funding targets were treated as prepayment
     credits and accounted for in the Other segment until needed to fund pension costs in the future.

3/   We obtained investment earnings from actuarial valuation reports. We allocated investment earnings
     based on the ratio of the segment’s weighted average value (WAV) of assets to Total Company WAV of
     assets as required by the Cost Accounting Standards.

4/   We reviewed and accepted CareFirst’s benefit payments to Medicare segment retirees.

5/   We allocated administrative expenses to the Medicare segment in proportion to investment earnings.

6/   CareFirst made adjustments for participant transfers between segments. We accepted its calculations.

7/   We obtained “Other” transaction information from the actuarial valuation reports. “Other” transactions
     represent plan merger and plan spinoff activities.

8/   We obtained total asset amounts as of December 31, 2005, from documents prepared by CareFirst’s
     actuarial consulting firm.

9/   The asset variance represents the difference between our calculation of Medicare segment assets and
     CareFirst’s market value of assets.
                                                                              APPENDIX B

      CALCULATION OF AGGREGATE MEDICARE PERCENTAGE

                    Medicare Segment
                     Pension Costs    Total Medicare
                      Charged to     Segment Pension Medicare's
      Fiscal           Medicare           Costs      Aggregate %
      Year 1/             (A)               (B)        (A/B) 2/

       1988               $91,987             $91,987
       1989                73,535              73,535
       1990                32,149              32,149
       1991                38,015              38,015
       1992                   0                   0
       1993                   0                   0
       1994                   0                   0
       1995                   0                   0
       1996                   0                   0
       1997                   0                   0
       1998                   0                   0
       1999                   0                   0
       2000                   0                   0
       2001                   0                   0
       2002                   0                   0
       2003                   0                   0
       2004                   0                   0
       2005                   0                   0

         Total           $235,686            $235,686          100.00%

1/   We obtained information for fiscal years (FY) 1988–1991 from our prior
     pension costs claimed audit (A-07-93-00694) and information for FYs
     1992–2001 from our later pension costs claimed audit (A-07-02-03036).
     We obtained information for FYs 2002–2005 during our current pension
     costs claimed audit (A-07-07-00244).

2/   We calculated the aggregate Medicare percentage by dividing the
     Medicare segment pension costs charged to Medicare (numerator) by the
     total Medicare segment pension costs (denominator) pursuant to Cost
     Accounting Standard 413. CareFirst’s aggregate Medicare percentage
     considered reimbursement levels of the segment’s pension costs.
     Because of the relationship between segment pension costs and segment
     pension assets, our calculations assumed 100-percent reimbursement of
     pension costs.
APPENDIX C
  Page 1 of 5
APPENDIX C
  Page 2 of 5
APPENDIX C
  Page 3 of 5
APPENDIX C
  Page 4 of 5
APPENDIX C
  Page 5 of 5
